APPENDIX A
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA CIRCUIT
No. 20-5187
September Term, 2020 Filed On: November 20,
2020 Katrina L. Webster, Appellant, v. Kenneth J.
Braithwaite, Secretary of Navy, etal., Appellees,
BEFORE: Millett, Pillard, and Rao, Circuit Judges
ORDER
Upon consideration of appellant’s brief, the motion for
summary affirmance, theresponse thereto, the reply,
the motion for leave to file surreply, and the lodged
surreply, it is ORDERED that the motion for leave to
file a surreply be granted. The Clerk is directed to file
the lodged surreply. It is FURTHER ORDERED
that the motion for summary affirmance be granted.
The merits of the parties’ positions are so clear as to
warrant summary action. See Taxpayers Watchdog.
Inc, v. Stanley. 819 F.2d 294, 297 (D.C. Cir. 1987) (per
curiam). First, appellant has forfeited any challenge
to the district court’s June 27, 2018 order dismissing
her claims against individual defendants by not
raising it on appeal. See U.S. ex rel. Totten v.
Bombardier Corp.. 380 F.3d 488, 497 (D.C. Cir. 2004).
Next, appellant has not shown that the district court
abused its discretion in denying her motion to compel
certain depositions. See U.S. ex rel. Folliard v. Gov’t
Acquisitions, Inc.. 764 F.3d 19, 26 (D.C. Cir. 2014).
Further, the district court properly dismissed

la

appellant’s claims arising from two Equal
Employment Opportunity complaints as time- barred
and unexhausted, and correctly granted summary
judgment to appellee on appellant’s other claims. See
Totten. 380 F.3d at 497. Appellant failed to offer
evidence
that
appellee’s
stated
legitimate,
nondiscriminatory reasons for bonus determinations
and appellant’s non-selection for two positions were
pretextual. See Bradv v. Office of Sergeant at Arms,
520 F.3d 490, 494 (D.C. Cir. 2008). Appellant also
failed to show that she suffered an adverse action with
respect to any of her remaining claims. See Baird v.
Gotbaum. 662 F.3d 1246, 1248 (D.C. Cir. 2011);
Rochon v. Gonzales. 438 F.3d 1211, 1219 (D.C. Cir.
2006). Additionally, the district court did notabuse its
discretion by denying appellant’s final motion for
reconsideration. See Firestone v. Firestone. 76 F.3d
1205, 1208 (D.C. Cir. 1996) (per curiam). Finally,
appellant has not offered evidence to support her
claims that the district court was impartial or acted
inappropriately. See Rafferty v. NYNEX Corn,. 60
F.3d 844, 847-48(D.C. Cir. 1995) (per curiam).
Pursuant to D.C. Circuit Rule 36, this disposition will
not be published. The Clerkis directed to withhold
issuance of the mandate herein until seven days after
resolution of any timely petition for rehearing or
petition for rehearing en banc. See Fed. R. App. P.
41(b); D.C. Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk

2a

BY:/s/
Manuel J. CastroDeputy Clerk

1

3a

APPENDIX B
UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
No. 20-5187
(l:17-cv-01472-DLF) KATRINA L. WEBSTER
Plaintiff - Appellant v. Kenneth J. Braithwaite Defendant-Appellee, Secretary of Navy for the United
States Department of Defense; James L. Lee, EEOC
Deputy General Counsel; Dean R. Berman; Strategic
Systems Program (SSP) Counsel; Kevin Keefe, SSP’s
Assistant Counsel; Jack W. Rickert, Associate
General Counsel National Geospatial-Intelligence
Agency’s (NGA’s); Defendants v. UNITED STATES
OF AMERICA Party-in-Interest.

MANDATE
The judgment of this court, entered January 11,2021,
takes effect today. This constitutes the formal
mandate of this court issued pursuant to Rule 41(a) of
the Federal Rules of Appellate Procedure.
/s/
Mark J. Langer, Clerk

4a

APPENDIX C
United States Court of Appeals
FOR THE DISTRICT
OF COLUMBIA
CIRCUIT

No. 20-5187 September Term, 2020
l:17-cv-01472-DLF
Filed On: January 11, 2021
Katrina L. Webster,
Appellant
v.
Kenneth J. Braithwaite, Secretary of Navy, etal.,
Appellees

BEFORE:

Srinivasan, Chief Judge, and
Henderson, Rogers, Tatel,
Garland*,Millett, Pillard,
Wilkins, Katsas, Rao, and
Walker, Circuit Judges
ORDER

Upon consideration of the petition for
* Circuit Judge Garland did not participate in this matter.

5a

rehearing en banc, and the absence of arequest
by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
/s/
Daniel J. Reid
Deputy Clerk

6a

APPENDIX D
FILED: July 06, 2020 UNITED STATES
COURT OF APPEALS FOR THE DISTRICT OF
COLUMBIA CIRCUIT
No. 20-5187 (l:17-cv-01472-DLF) KATRINA L.
WEBSTER Plaintiff
Appellant v. Kenneth J.
Braithwaite - Defendant-Appellee, Secretary of Navy
for the United States Department of Defense; James
L. Lee, EEOC Deputy General Counsel; Dean R.
Berman; Strategic Systems Program (SSP) Counsel;
Kevin Keefe, SSP’s Assistant Counsel; Jack W.
Rickert, Associate General Counsel National
Geospatial-Intelligence Agency’s (NGA’s); Defendants
v. UNITED STATES OF AMERICA Party-in-Interest.

7a

STAY OF MANDATE UNDER
FED: R. APP.P. 41 (d)(1),
FED: R. APP.41 (d)(1), the timely filing of a petition
for rehearing or rehearing en banc or the timely filing
of a motion to stay the mandate stays the mandate
until the court has ruled on the petition for rehearing
or rehearing en banc or motion to stay. In accordance
with Rule 41 (d) (1), the mandate is stayed pending
further: order of this court.
Is/

Mark J. Langer, Clerk

8a

APPENDIX E
USCA Case #20-5187
Document #1872548
Filed: 11/20/2020 Page 1 of 2
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 20-5187

September Term, 2020

l:17-cv-01472-DLF Filed On: November 20, 2020

Katrina L. Webster,
Appellant
V.
Kenneth J. Braithwaite, Secretary of Navy, et al.,
Appellees
BEFORE: Millett, Pillard, and Rao, Circuit Judges
ORDER
Upon consideration of appellant’s brief, the
motion for summary affirmance, the response
thereto, the reply, the motion for leave to file
surreply, and the lodged surreply, it is
ORDERED that the motion for leave to file a
9a

surreply be granted. The Clerk is directed to file the
lodged surreply. It is
FURTHER ORDERED that the motion for
summary affirmance be granted. The merits of the
parties' positions are so clear as to warrant summary
action. See Taxpayers Watchdog. Inc, v. Stanley. 819
F.2d 294, 297 (D.C. Cir. 1987) (per curiam). First,
appellant has forfeited any challenge to the district
court's June 27, 2018 order dismissing her claims
against individual defendants by not raising it on
appeal. See U.S. ex rel. Totten v. Bombardier Corn..
380 F.3d 488, 497 (D.C. Cir. 2004 ). Next, appellant
has not shown that the district court abused its
discretion in denying her motion to compel certain
depositions. See U.S. ex rel. Folliard v. Gov't
Acquisitions, Inc.. 764 F.3d 19, 26 (D.C. Cir. 2014).
Further, the district court properly dismissed
appellant's claims arising from two Equal
Employment Opportunity complaints as timebarred
and unexhausted, and correctly granted summary
judgment to appellee on appellant's other claims. See
Totten. 380 F.3d at 497. Appellant failed to offer
evidence
that
appellee's
stated
legitimate,
nondiscriminatory reasons for bonus determinations
and appellant's non-selection for two positions were
pretextual. See Brady v. Office of Sergeant at Arms,
520 F.3d 490, 494 (D.C. Cir. 2008). Appellant also
failed to show that she suffered an adverse action
with respect to any of her remaining claims. See
Baird v. Gotbaum. 662 F.3d 1246, 1248 (D.C. Cir.
2011); Rochon v. Gonzales. 438 F.3d 1211, 1219 (D.C.
Cir. 2006). Additionally, the district court did not
abuse its discretion by denying appellant's final
motion for reconsideration. See Firestone v.
10a

Firestone. 76 F.3d 1205, 1208 (D.C. Cir. 1996) (per
curiam). Finally, appellant has not offered evidence
to support her claims that the district court was
impartial or acted inappropriately. See Rafferty v.
NYNEX Corn.. 60 F.3d 844, 847-48 (D.C. Cir. 1995)
(per curiam).
Pursuant to D.C. Circuit Rule 36, this
disposition will not be published. The Clerk is directed
to withhold issuance of the mandate herein until
seven days after resolution of any timely petition for
rehearing or petition for rehearing en bane. See Fed.
R. App. P. 41(b); D.C. Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:
Manuel J. Castro Deputy Clerk

/s/

Page 2 of 2

11a

APPENDIX F
UNITED STATES DISTRICT COURTFOR THE
DISTRICT OF COLUMBIA
KATRINA L. WEBSTER,
Plaintiff,
v.
RICHARD V. SPENCER1, Secretary of the Navy,
Defendant.

No. 17-cv-1472-DLF

MEMORANDUM OPINION
Katrina L. Webster, acting pro se, brings these
Title VII and Age Discrimination in Employment Act
claims against Richard V. Spencer in his official

1 When this suit began, Sean Stackley was the Secretary of the
Navy. When Richard Spencer became the Secretary, he was
substituted automatically as the proper the defendant. See Fed.
R.Civ. P. 25(d).

12a

capacity as the Secretary of the Navy.2
She alleges that while working for the Navy she
experienced retaliation, discrimination, and a hostile
work environment. Before the Court are the Navy’s
Motion to Dismiss and for Summary Judgment, Dkt.
66, and Webster’s Cross-Motion for Summary
Judgment, Dkt. 71. For the following reasons, the
Court will grant in part and deny in part the Navy’s
motion and deny Webster’s cross-motion.

I.

BACKGROUND

Webster is a longtime Navy employee. She
started there in 1998, as a GS-0318-05 secretary in the
Technical Division of the Navy’s Strategic Systems
Programs. Def.’s Statement of Undisputed Material
Facts (“Def.’s Facts”) 1f 1, Dkt. 66.3 In 2000, the Navy
promoted her to a GS-0318-06 secretary, and she
remains in that position today. Id. 2. She identifies
as “African-American” and “female.” Am. Compl. ]f 8,
Dkt. 47-1.
A.

Webster’s Claims

Webster alleges that since 2003 multiple Navy
employees “have colluded. . . to deny herpromotions,
bonuses[,] and awards.” Id. If 15. Their goal: to cause
“enough financial hardship” for Webster and her
2 Though the Department of the Navy is not formally a defendant
in this case, the Court willrefer to the Secretary of the Navy as
“the Navy”.
3 The Court cites to the parties’ statements of facts for
information that is not genuinely disputed. Any disputes are
either not genuine or immaterial.

2a

husband that the Navy would “revoke their security
clearances.” Id. 111. Their motive: to retaliate against
Webster for an Equal Employment Opportunity
(EEO) complaint that she and her husband had filed
in March 2002. Id. She contends that in seeking these
ends the colluders created a hostile work environment
and committed numerous instances of retaliation and
race-, sex-, and age-based discrimination. See id. 116.
She raised these allegations in seven Navy EEO
complaints, and her amended complaint incorporates
and focuseson these complaints and allegations. See
id. The first two EEO complaints cover activity from
December 23, 2008 to March 25, 2010.4 As explained
in Part III below, the Court will dismiss the claims
associated with these complaints for Webster’s failure
to timely exhaust administrative remedies and failure
to timelyfile suit. The Court thus need not recount
those claims here.
The remaining EEO complaints that fuel
Webster’s suit allege a potpourri of employment
actions to support her claims.5 Given the discrete
nature of each action, the Court organizes them by
category, not chronology. The undisputed material

4 These are Navy EEO complaint numbers: 09-00030-00674, see
Def.’s Ex. 2, Dkt. 65-3; andl0-00030-00266, see Def.’s Ex. 7, Dkt.
65-8.
5 These are Navy EEO complaint numbers: 11-00030-02576, see
Def.’s Ex. 10, Dkt. 65-11;
12-00030-00282, see Def.’s Ex. 12, Dkt. 65-13; 12-00030-03671,
see Def.’s Ex. 18, Dkt. 65-19;
13-00030-03295, see Def.’s Ex. 18; 15-00030-01985, see Def.’s Ex.
22, Dkt. 65-23; and
15-00030-03003, see Def.’s Ex. 25, Dkt. 65-26.

3a

facts of each action follow.
Performance reviews. Webster alleges that she “was
denied favorable performance reviews to deny her
salary increases, bonuses, [and] awards.” Am. Compl.
If 347; see also id307; id. ^f 326. In particular,
Webster considers certain narratives to be “negative
and demeaning” and argues that she deserved higher
ratings. Pl.’s Statement of Material Facts as to Which
There is No Genuine Issue (“Pl.’s Facts”) at 4, Dkt. 701.
•
In the 2010 annual review, Captain
Michael Gill, documented Webster’s successes and
areas for improvement. See Def.’s Ex. 34 at 16—18,
Dkt. 65-35. Gill rated her “acceptable” in all critical
areas. Id. at 21.
•
In the 2011 annual review, Gill again
documented Webster’s strengths and weakness. He
wrote that Webster “can complete tasks when given
the proper supervision and guidance but still needs to
improve in the areas of paying attention to detail and
operating independently.” Def.’s Ex. 35 at 14. He
added that she “processes letters and memos within
[two] days but they need to be checked closely by a
supervisor for errors. As a result, [she] has only been
assigned basic clerical tasks in the Branch. We have
been working . .. tohelp her improve in this area.” Id.
Gill ultimately rated Webster “acceptable” under a
pass-fail rating system. Def.’s Facts If 77.
•
In a 2012 “close-out” review covering part
of fiscal year 2012, which Gill prepared before his
April 2012 retirement, Gill similarly noted where
Websterexcelled and where she still could improve.
4a

See Def.’s Ex. 26 at 14r-16. He rated her “acceptable”
in all critical areas. Def.’s Facts t 82.
•
In a 2014 mid-year review, Captain
Douglas Williams mistakenly listed Webster’s career
stage rating as “entry” rather than “expert.” Def.’s Ex.
37 atlO-11. Once he learned about the mistake, he
changed the rating to expert. Id. Williams gave
Webster a “glowing” rating. Def.’s Facts Tf 100.
•
For the 2015 annual review, Commander
Patrick Croley gave Webster a rating of 40. Def.’s
Facts t 105.
Based on Webster’s expected
performance range of 37 to 44, this represented an
average rating. Pl.’s Facts at 12.
Bonus decisions. Webster alleges that she was denied
“bonuses and awards consistentwith other [similarly
situated] members of her branch.” Am. Compl. ^ 307;
see also id. f 325;id. Tf 346. She appears to challenge
the following bonus decisions:
•
For 2010, Gill gave Webster a reward
recommendation of “1.33.” Def.’s Facts If 63. The
predetermined year-end bonus payout for a 1.33
rating was $243, which Webster received. Id.
64—
65.
•
In 2011, “[a] few individuals received onthe spot awards ... for special acts or special
outstanding performance.” Id. f 80. Though Webster
“believed shedeserved” such an award, id.
78, she
did not receive one, Pl.’s Facts at 7.

5a

•
For 2015, Webster received a $403 bonus,
Def.’s Facts If 110, which was lower than the $750
bonus she received in 2014, Pl.’s Facts at 13. A
“standard formula that took into account the
employee’s
[performance]
score and
salary”
determined this amount. Def.’s Facts ] 111.
Letter of requirement. On March 12, 2010, Gill
placed Webster on a “letter of requirement” after
determining that Webster “maintain[ed]
an
unacceptable leave pattern” and did “not follow
appropriate [leave] request procedures.” Def.’s Ex. 32
at 63. The letter requiredthat Webster follow specific
procedures for requesting and documenting leave “due
to [her] unacceptable time and attendance record.” Id.
Webster cites the letter of requirement as “direct
evidence” of “retaliation, harassment, and hostile
work environment.” Am. Compl. ]f 114.
Leave request. Webster alleges that the Navy
“[consistently denied [her] requests for leave.” Am.
Compl. If 320. Webster alleged some of those denials
in the two EEO complaints that the Court will dismiss
in Part III.A below, so the Court does not recount
them here. But there is one alleged denial that
survives the motion to dismiss. In early May 2011,
Webster submitted a leave request to Gill, her
immediate supervisor. Def.’s Facts 1f 69. She asked for
three total hours of leave to take her son to two
upcoming appointments. Id. ^ 69-70; Def.’s Ex. 34 at
91. Webster asserts that Gill denied this initial
request, Pl.’s Opp. at 10-11, Dkt. 70, while the Navy
says he “merely requested more information,” Def.’s
Reply at 12, Dkt. 72. No matter who is correct, Gill

6a

approved a modified leave request after “she had
submitted what he wanted to approve.” Pl.’s Opp. 11—
12.
Letter of reprimand. While Webster was waiting for
Gill ultimately to approve her Mayleave request, she
emailed Webster’s superior, Captain Steven Lewia,
asking him to approve theleave request and claiming
that Gill had denied it. Def.’s Facts % 72.
A similar thing had happened before. In March 2011,
Webster bypassed Gill to requestleave and training
approval from Lewia and Rear Admiral Terry
Benedict. Def.’s Ex. 34 at 41.
This incident caused Gill to issue a “letter of direction”
to Webster. Id. It reiterated that leave-approval
authority rested with Gill alone and directed Webster
to follow the chain ofcommand for future requests. Id.
When Webster bypassed Gill again over the May leave
request, Gill issued her a “letter of reprimand” for
violating the letter of direction. Def.’s Facts
75-76.
Like the letter of requirement, Webster considers the
letter of reprimand to be “direct evidence” of
“retaliation,
harassment,
and
hostile
work
environment.” Am. Compl. f 114. Security clearance
issue. In 2013, Lieutenant Commander Travis
Plummer generated areport from the Joint Personnel
Adjudication System (JPAS), which stores security
clearance information. Def.’s Facts Tf 87.
The report revealed that the JPAS entries for Webster
and 12 other Strategic Systems Programs employees
showed no current security access. Id. 1 88. Plummer
was unable to fix the error for Webster and one other

7a

employee. Id. t 89.
The Navy could not grant Webster or the other
employee the “secret” access that their jobs required
without a JPAS entry showing a current security
clearance. Id. Ulf 90-91. So the Navy placed Webster
and the other employee on paid leave until it could fix
the JPAS errors. Id.
f 91. Webster was on paid leave status for about six
weeks. Id. t 92. Her security clearance was never
revoked, and she was paid while on leave. Id. 93-94.
When Commander Doug Williams placed Webster on
leave, he did not know about her past EEO activity.
Id. Tf 96. Thesame was true of Plummer. Id. If 96.
Webster admits that “Plummer was just doing
his job.” Pl.’s Opp. 33. She contends that other
“officials colluded to remove [her] security access from
JPAS” to justify searching her credit history for “credit
issues that [they] could use to revoke [her] security
clearance.” Id. 32.
Promotion opportunities. Webster alleges that
the Navy denied her certain promotion opportunities.
Am. Compl. If 15. Two alleged opportunities survive
the Navy’s motion to dismiss. The first opening was
for a GS-0318-08 secretary position; it opened after
the incumbent, a white female, retired. Def.’s Facts
97; Am. Compl. f 179. The Navy did not advertise this
position as a government vacancy and did not fill it
with a government employee. Def.’s Facts Tf 98. It
hired a contractor who identified as an AfricanAmerican female. Id. ^f 97.

8a

Webster does not appear to allege that she ever
applied for this position. See Am. Compl.
179—182. Her complaint is that “the position was
not announced” and that Navy officials didnot want
her to apply. Pl.’s Opp. 34. She believes that the Navy
filled the position“non-competitively” and that she
“should have been given the opportunity to be
promoted.” Id.
The second opening was for a management
analyst position in Strategic Systems Programs.
Def.’s Facts 115; id. Tf 126. Webster did apply for
this position and completed the occupational
questionnaire. Id.
Each answer on the occupational questionnaire
received a predetermined, standard numerical rating,
depending on the candidate’s answer. Id.
120. A
software system calculated the candidate’s overall
rating based on those answers. Id. To be considered
eligible for this position, a candidate had to score 90 or
higher on the occupationalquestionnaire. Id. 122.
A human resources specialist based in the state
of Washington named Judith Stout handled the initial
screening. Id. If 116. Stout did not now Webster, did
not have a working relationship with her, did not
know Webster’s race, age, or sex, and was unaware
that Webster had engaged in past EEO activity. Id. f
129. Stout’s job was to review each applicant’s resume
and occupational questionnaire and then to assemble
a list of eligible candidates. Id. Tf^f 116-117. Based on
Webster’s self-reported answers to the questionnaire,
she received a rating of 86.

9a

Id. t 124. This placed Webster below the 90-point
cutoff, so Stout did not include Webster on the list of
eligible candidates that she sent to Strategic Systems
Programs. Id. Tfl 125—126. Fromthe list of eligible
candidates, Strategy Systems Programs ultimately
selected Michael Mendoza for the position. Id. f 127.
B.

Procedural History

Webster filed this action on July 25, 2017. See
Dkt. 1. The Court had resolved a motionto dismiss
Webster’s original complaint, see Dkt. 19, and the
parties were in discovery when Webster moved to
amend her complaint on April 17, 2019, see Dkt. 47.
The Court granted in part and denied in part that
motion on June 12, 2019. See Dkt. 56. The amended
complaint asserts claims under Title VII (Counts I—
III), id.
304-359, and the Age Discrimination in
Employment Act (Count IV), id.
360-378, of a
hostile work environment and discrimination based
on race, gender, age, and retaliation.
On October 7, 2019, the Navy moved to dismiss
certain claims, moved for judgment on the pleadings
for certain claims,6 and moved for summary judgment
on all claims. On December2, 2019, Webster crossmoved for summary judgment. These motions are
now ripe.

6 The Court must treat the Navy’s motion for judgment on the
pleadings as one for summary judgment because “matters
outside the pleadings are presented to and not excluded by the
court.’Ted. R. Civ. P. 12(d). Both sides have had “a reasonable
opportunity to present all the material that is pertinent to the
motion,” given that both have moved for summary judgment. Id.

10a

II.
A.

LEGAL STANDARDS
Motion to Dismiss

The Navy moves to dismiss the claims associated with
EEO complaint no. 09-00030-00674 for failure to
timely exhaust administrative remedies and EEO
complaint no. 10-00030-00266 for failure to timely file
suit. See Def.’s Mem. in Support of Mot. for Summ. J.
(“Def.’s Br.”) at 28—29, Dkt. 67. The Navy moves under
Rule
12(b)(1),
which
policies
jurisdictional
deficiencies. See id. at 1. But the Navy’s arguments
raise only procedural deficiencies and thus properly
proceed under Rule 12(b)(6). See Fort Bend Cnty. v.
Davis, 139 S. Ct. 1843, 1851 (2019) (holding that Title
VII’s charge-filing provisions are mandatory
procedural
requirements,
not
jurisdictional
requirements); Artis v. Bernanke, 630 F.3d 1031, 1034
n.4 (D.C. Cir. 2011) (noting “that failure to exhaust
administrative remedies is not jurisdictional under
current precedents”); Gordon, 675 F.2d at 360
(holding that Rule 12(b)(6) applies to assertions of
untimely Title VII suits); Porter v. Sebelius, 944 F.
Supp. 2d 65, 68 (D.D.C. 2013) (holding that
exhausting administrative remedies and timely filing
suit under Title VII “are not jurisdictional”
requirements). The Federal Rules of Civil Procedure
permit the Court to consider the Navy’s motion to
dismiss under Rule 12(b)(6), as the rules follow the
“guiding principle” of “[f]airness, not excessive
technicality.” Gordon, 675 F.2d at 360. And here,
because “the parties do not disagree about the facts”
underlying these procedural requirements “but rather
about purely legal issues, which have been fully
briefed,” the parties “will not be prejudiced by the

11a

Court’s consideration of [the Navy’s] motion pursuant
to the standards of Rule 12(b)(6).” Kamen v. Int’IBhd.
of Elec. Workers (IBEW) AFL-CIO, 505 F. Supp. 2d 66,
71 n.l (D.D.C. 2007). The Court will construe the
Navy’s Rule 12(b)(1) motion as a Rule 12(b)(6) motion.
Rule 12(b)(6) allows a defendant to move to dismiss
the complaint for failure to state a claim upon which
relief can be granted. Fed. R. Civ. P. 12(b)(6). To
survive a Rule 12(b)(6) motion, a complaint must
contain factual matter sufficient to “state a claim to
relief that is plausible on its face.” BellAtl. Corp., 550
U.S. at 570. Well-pleaded factual allegations are
“entitled to [an] assumption of truth,” Iqbal, 556 U.S.
at 679, and the court construes the complaint “in favor
of the plaintiff, who must be granted the benefit of all
inferences that can bederived from the facts alleged,”
Hettinga v. United States, 677 F.3d 471, 476 (D.C. Cir.
2012) (internal quotation marks omitted). A Rule
12(b)(6) dismissal for failure to state a claim—
including for failure to exhaust administrative
remedies—“is a resolution on the merits and is
ordinarily prejudicial.” Okusami v. Psychiatric Inst, of
Wash., Inc., 959 F.2d 1062, 1066 (D.C. Cir. 1992).
When deciding a Rule 12(b)(6) motion, the court may
consider only the complaint itself, documents
attached to the complaint, documents incorporated by
reference in the complaint, and judicially noticeable
materials. EEOC v. St. Francis Xavier Parochial Sch.,
117 F.3d 621, 624 (D.C. Cir. 1997). As relevant here,
a court may consider a plaintiffs EEO documents for
assessing exhaustion and timeliness attacks,
particularly when—as is true in this case—neither
side disputes their authenticity. See Bowden v. United
States, 106 F.3d 433, 437 (D.C. Cir. 1997) (considering
“the pleadings and undisputed documents in the

12a

record” while reaching the merits on a motion to
dismiss); Vasser v. McDonald, 228 F. Supp. 3d 1, 11
(D.D.C. 2016) (taking judicial notice of informal and
formal administrative complaints on a motion to
dismiss); Williams v. Chu, 641 F. Supp. 2d 31, 35
(D.D.C. 2009) (“A plaintiffs EEOC charge and the
agency's determination are both public records, of
which this Court may take judicial notice.” (quotation
marks and alteration omitted)).
B.

Summary Judgment

Under Rule 56, summary judgment is
appropriate if the moving party “shows that there isno
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a); see also Anderson v. Liberty
Lobby Inc., 477 U.S. 242, 247-48 (1986). A “material”
fact is one that could affect the outcome of the lawsuit.
See Liberty Lobby, All U.S. at 248; Holcomb v. Powell,
433 F.3d 889, 895 (D.C. Cir. 2006). A dispute is
“genuine”if a reasonable jury could determine that the
evidence warrants a verdict for the nonmoving party.
See Liberty Lobby, 411 U.S. at 248; Holcomb, 433 F.3d
at 895. In reviewing the record, the court “must draw
all reasonable inferences in favor of the nonmoving
party, and it may not make credibility determinations
or weigh the evidence.” Reeves v. Sanderson Plumbing
Prods., 530 U.S. 133, 150 (2000).
But a party “opposing summary judgment”
must “substantiate [its allegations] with evidence”
that “a reasonable jury could credit in support of each
essential element of [its] claims.” Grimes v. District of
Columbia, 794 F.3d 83, 94 (D.C. Cir. 2015). The
moving party isentitled to summary judgment if the
13a

opposing party “fails to make a showing sufficient to
establish the existence of an element essential to that
party’s case, and on which that party will bear the
burden of proof at trial.” Celotex Corp. v. Catrett, 477
U.S. 317, 322 (1986).
III.
A.

ANALYSIS
Motion to Dismiss

The Court will dismiss Webster’s claims
associated with Navy EEO complaint numbers 0900030-00674 and 10-00030-0026.
As to complaint number 09-00030-00674,
Webster failed to timely exhaust her administrative
remedies. “Title VII complainants must timely
exhaust their administrative remedies before
bringing their claims to court.” Payne v. Salazar, 619
F.3d 56, 65 (D.C. Cir. 2010) (internal quotation marks
and alterations omitted); see also 42 U.S.C. § 2000e16(c). The exhaustion requirement “serves the
important purposes of giving the charged party notice
of the claim and narrowing the issues for prompt
adjudication and decision,” Park v. Howard Univ., 71
F.3d 904, 907 (D.C. Cir. 1995) (internal quotation
marks and alteration omitted), and it “ensure[s] that
the federal courts are burdened only when reasonably
necessary,” Brown v. Marsh, 111 F.2d 8, 14 (D.C. Cir.
1985). In the Title VII context, failure to exhaust is an
affirmative defense, and thus “the defendant bears
the burden of pleading and proving it.” Bowden, 106
F.3d at 437; see also Smith-Haynie v. District of
Columbia, 155 F.3d 575, 578(D.C. Cir. 1998) (“[A]n
affirmative defense may be raised by pre-answer
motion under Rule 12(b) when the facts that give rise
14a

to the defense are clear from the face of the
complaint.”).
On March 26, 2013, the Navy rejected
complaint no. 09-00030-000674 and warned Webster
that she had 30 days to appeal the decision to the
EEOC. Def.’s Ex. 3 at 1—2. But Webster did not appeal
to the EEOC until more than two years later, on
October 10, 2015. Def.’s Ex. 4 at 1. The EEOC
unsurprisingly dismissed that appeal as untimely. Id.
at 1-2. The Court similarly concludes that by failing
to timely appeal the Navy’s decision to the EEOC,
Webster failed to exhaust her administrative
remedies.
As to complaint number 10-00030-00266,
Webster failed to heed Title VH’s requirement “that
plaintiffs file suit within 90 days of receiving notice
from the EEOC of their right to sue.” Gordon, 675 F.2d
at 359; see also 42 U.S.C. § 2000e-5(f)(l). On May 3,
2012, the EEOC granted summary judgment for the
Navy on this complaint. Def.’s Ex. 7 at 1, 8. On July
16, 2012, the EEOC affirmed that judgment and told
Webster that she had 90 days either to request
reconsideration or to file a complaint in federal court.
Def.’s Ex. 8 at 1, 4. The record contains no evidence
that Webster requested reconsideration with the
EEOC, and she did not file this suit until July 25,
2017—nearly five years after the EEOC gave Webster
the green light to sue. Thus,Webster failed to bring
these claims to federal court on time. Webster does not
dispute this procedural history for either complaint.
See Pl.’s Opp. at 1.
She maintains instead that the “continuing
violation” doctrine excuses her tardiness. Id. This

15a

“muddled” doctrine is one of several “exceptions to,
and glosses on,” the “general rule” that a “claim
normally accrues when the factual and legal
prerequisites for filing suit are in place.” Earle v.
District of Columbia, 707 F.3d 299, 306 (D.C. Cir.
2012). It can apply to conduct that turned out to be
illegal only after its cumulative impact revealed the
illegality—e.g., the conduct that often forms hostile
work environment claims. See id. It can apply also to
conduct that violates a statutorily imposed
“continuing violation to act or refrain from acting.” Id.
at 307.
But it does not apply to a “discrete unlawful
act.” Id. at 306. And discrete acts are all that
complaints 09-00030-00674 and 10-00030-00266
allege. See Def.’s Ex. 2; Def.’s Ex. 7. These complaints
do not allege hostile work environment claims or other
similar claims, and they do not allege that the Navy
violated a continuing obligation. The continuing
violation doctrine thusdoes not absolve Webster of her
failure to exhaust administrative remedies or to
timely file suit.
For these reasons, the Court will grant the
Navy’s motion to dismiss the claims arising under
these two complaints. The Court thus will also deny
as moot the Navy’s motion for summary judgment and
Webster’s cross-motion for summary judgment as to
those claims.
B.

Summary Judgment

The Court will grant summary judgment for the Navy
on Webster’s remaining discrimination, retaliation,
and hostile work environment claims.

16a

1.

Discrimination and Retaliation Claims

Webster alleges that numerous incidents
constituted
some
combination
of
unlawful
discrimination and retaliation under Title VII and the
Age Discrimination in Employment Act (AD EA).7 Title
VII requires that any “personnel actions affecting
employees. . . in executive agencies ... be made free
from any discrimination based on,” among other
characteristics, “race” or “sex.” 42 U.S.C. § 2000e—
16(a). The ADEA requires that [a]ll personnel actions
affecting employees . . . who are at least 40 years of
age ... in executive agencies ... be madefree from any
discrimination based on age.” 29 U.S.C. § 633a(a).
Webster “offers no direct evidence of discrimination”
under either statute. “[T]o survive summary judgment
and earn the right to present her case to a jury, she
must resort to the burden-shifting framework of
McDonnell Douglas Corp. v. Green” Barnette v.
Chertoff, 453 F.3d 513, 515 (D.C. Cir. 2006); see
Broderick v.Donaldson, 437 F.3d 1226, 1231 (D.C. Cir.
2006) (explaining that the McDonnell Douglas
framework applies to retaliation claims).
The McDonnell Douglas framework has three
steps. The employee first must make a prima facie
case of discrimination or retaliation. See Iyoha u.
Architect of the Capitol, 927 F.3d 561, 566 (D.C. Cir.
2019). The “two essential elements of a discrimination
7
Not every EEO claim involved race, sex, and age
discrimination, or retaliation and Webster’s complaint is not
entirely precise on which actions related to which counts. The
Court will construe Webster’s complaint broadly and analyze
each incident for discrimination or retaliation.

17a

claim” under Title VII and the ADEA “are that (i) the
plaintiff suffered an adverse employment action (ii)
because of the plaintiffs race, color, religion, sex,
national origin, age, or disability.” Baloch v.
Kempthorne, 550 F.3d 1191, 1196 (D.C. Cir. 2008).
And “[t]o prove retaliation, the plaintiff generally
must establish that he or she suffered (i) a materially
adverse action (ii) because he or she had brought or
threatened to bring a discrimination claim.” Id. at
1198.
If the plaintiff makes the prima facie showing,
the employer must produce a “a legitimatereason for
the challenged action.” Id. Four factors are
“paramount” here: (1) whether the employer’s
evidence would be admissible at trial; (2) whether “the
factfinder, if it believed the evidence, [would]
reasonably be able to find that the employer’s action
was motivated by a nondiscriminatory reason”; (3)
whether the employer’s justification is “facially
credible”; and (4) whether the employer’s explanation
is “clear,” “reasonably specific,” and “articulated with
some specificity.” Figueroa v. Pompeo, 923 F.3d 1078,
1087-88 (D.C. Cir. 2019) (internal quotations
omitted).
And if the employer carries this burden, the
final and “central inquiry” is “whether the plaintiff
produced sufficient evidence for a reasonable jury to
find that the employer’s asserted non-discriminatory
reason was not the actual reason and that the
employer intentionally discriminated against the
plaintiff on a prohibited basis.” Brady v. Office of
Sergeant at Arms, 520 F.3d 490, 494 (D.C. Cir. 2008).
The issue here “is not the correctness or desirability of

18a

thereasons offered but whether the employer honestly
believes in the reasons it offers.” Fischbach D.C. Dep’t
of Corr., 86 F.3d 1180, 1183 (D.C. Cir. 1996)
(alterations adopted and internal quotation marks
omitted). Most often, if the employer carries its
burden at step two, the district court “need not— and
should not—decide whether the plaintiff actually
made out a prima facie case.” Brady v. Office of
Sergeant at Arms, 520 F.3d 490, 494 (D.C. Cir. 2008).
But if an employer contests whether the plaintiff
suffered a sufficiently adverse action to sustain a
discrimination or retaliation claim, it is appropriate to
consider first whether the plaintiff has made a prima
facie case. See Baloch, 550 F.3d at 1197 (analyzing
whether the employee suffered an adverse action
despite the plaintiffs failure to rebut the employer’s
nondiscriminatory rationale).
Based on these standards, the Navy is entitled
to summary judgment on Webster’s discrimination
and retaliation claims. Some of the actions supporting
Webster’s claims do not satisfy the adverse action
element of discrimination and retaliation claims. And
Webster fails torebut the Navy’s legitimate basis for
the remaining actions.
i.

Failure to Satisfy the Adverse Action Element

An employer’s action is sufficiently adverse for
a discrimination claim only if it causes “a significant
change in employment status”—e.g., “hiring, firing,
failing to promote, reassignment with significantly
different responsibilities, or a decision causing
significant change in benefits.” Baird v. Gotbaum, 662
F.3d 1246, 1248 (D.C. Cir. 2011). The action must

19a

cause the employee “materially adverse consequences
affecting the terms, conditions, or privileges of
employment or future employment opportunities such
that a reasonable trier of fact could find objectively
tangible harm.” Id. at 1248-49. An employer’s action
is sufficiently adverse for a retaliation claim if it “well
might have dissuaded a reasonable worker from
makingor supporting a charge of discrimination.” Id.
at 1249 (internal quotation omitted). Such actions
“are not limited to discriminatory actions that affect
the terms and conditions of employment.” Id. (internal
quotation marks omitted). Yet “while the scope of
actions covered by Title VH’s substantive provision
and its anti-retaliation provisions differ, the
magnitude of harm that plaintiff must suffer does
not”—in both cases, the plaintiff must suffer
“objectively tangible harm.” Hornsby v. Watt, 217 F.
Supp. 3d 58, 66 (D.D.C. 2016).
The following actions do not meet even the
more-forgiving definition used in the retaliation
context and thus are not adverse actions in either
context. The Navy is thus entitled to summary
judgment on these claims.
Performance reviews. To be materially adverse,
a performance appraisal “must affect the employee’s
position,
grade level, salary, or promotion
opportunities.” Taylor v. Solis, 571 F.3d 1313, 1321
(D.C. Cir. 2009) (internal quotation marks omitted).
An employee’s “bare, conclusory allegation” of
financial harm will not do. Id. Here, the challenged
performance appraisals all rated Webster as
acceptable. In addition, the narratives were hardly
derogatory or dismissive. They included ordinary
feedback and some guidance for improvement. In fact,

20a

Gill noted in several reviews that Webster was
improving, and her 2014 review was “glowing.” Far
from demonstrating adverse action, these reviews
instead seem to have operated as designed, prompting
Webster to make continued improvement over time.
Though Webster believes that her reviews were
unduly negative, she presents no concrete evidence
that these fairly ordinary reviews affected her
position, grade level, salary, or promotion
opportunities. See Grimes, 794 F.3d at 94. The
reviews were not adverse actions.
Letter of requirement. The letter of requirement
clearly was not an adverse action for discrimination
purposes. It was not “a significant change in
employment status” along the lines of a hiring, firing,
failure to promote, or reassignment. Baird, 662 F.3d
at 1248. Nor did it effect a “significant change in
benefits.” Id. All it did was require that she follow
additional
procedural
and
documentation
requirements when requesting leave. It is a closer call
whether the letter of requirement was an adverse
action for retaliation purposes. But because the letter
imposed procedural rather than substantive
requirements, it would not have dissuaded a
reasonable employee from making a discrimination
charge. See id. at 1249. It thus was not anadverse
action for retaliation purposes either.
Leave Request. There is a dispute whether Gill
denied Webster’s May 5 request for threehours’ leave
or merely requested more information before granting
it. But there is no dispute that he ultimately granted
Webster a modified request a short time later. Gill’s
action—an initial denial (or request for more
information) of a request for three hours of leave—is
plainly not an adverse action either for discrimination

21a

purposes or retaliation purposes.
Letter of reprimand. A letter of reprimand that
“contained no abusive language” but instead included
“job-related constructive criticism” that “can prompt
an employee to improve her performance” does not
satisfy the adverse action element—even for
retaliation claims. Baloch, 550 F.3d 1199. Gill’s letter
of reprimand was such a letter. It contained no
abusive language and instead explained what
Webster need to do to improve her performance in the
future. See Def.’s Ex. 34 at 43. On top of that, Gill had
a sound and reasonable basis for issuingthe letter,
given that Webster had violated the letter of direction
that Gill had issued just two months earlier. See id.
at 41. The letter of reprimand was not an adverse
action of any sort.
Security clearance issue. Webster did not suffer
an adverse action when the Navy placed her on six
weeks of paid administrative leave while it resolved
the security clearance issue. Evena “19 month period
of paid administrative while an investigation is
ongoing . . . does not, by itself, constitute adverse
action” for discrimination purposes. Jones v. Castro,
168 F. Supp. 3d 169, 179 (D.D.C. 2016) (citing cases).
The same goes a retaliation claim: “placing an
employee on paid administrative leave does not, in
and of itself, constitute a materially adverse action for
purposes of a retaliation claim.” Hornsby, 217 F. Supp.
3d at 66. The employee must show “objectively
tangible harm.” Id. at 67.
Webster shown no such harm. First, she
“continued to receive full pay and benefits.” Id. Second,
if 19 months of paid leave is not an adverse action, see

22a

Castro, 168 F. Supp. 3d at 179, then six weeks surely
“is not, in itself, so long as to have caused [Webster]
any objectively tangible harm,” Hornsby, 217 F. Supp.
3d at 67. Third, Webster was ultimately reinstated.
Cf. Hornsby, 217 F. Supp. 3d at 67 (holding that even
a failure to reinstate was not materially adverse when
the plaintiff failed to allege that the failure was
unreasonable). Fourth and finally, Webster has shown
no other evidence that she suffered “other harms
resulting] directly from the terms of [her]
administrative leave.” Id. For these reasons, the paid
administrative leave was not an adverse action.
Failure to Rebut the Navy’s Legitimate Rationales
Webster fails to rebut the Navy’s legitimate,
nondiscriminatory rationales for the remaining
challenged actions—even assuming they are
sufficiently adverse. See Iyoha, 927 F.3dat 566. The
Navy is thus entitled to summary judgment on these
claims.
Bonus decisions. The Navy has established
that it based Webster’s bonus determinations on
legitimate, nondiscriminatory rationales. Fischbach,
86 F.3d at 1183. Webster has not produced evidence
to rebut the Navy’s rationales.
For 2010, Webster received a $243 year-end
bonus that she considers unjustified. Def.’s Facts 1fl
63-69. This was based on a predetermined formula
that incorporated Gill’s reward recommendation
score. Id. Gill based this score in part on Webster’s
self-assessment, which was incomplete but noted her
12 years of experience, two college degrees, emails of
commendation, and the duties that she accomplished.
See Def.’s Ex. 34 at 16. He also evaluatedthe “critical
elements” for Webster’s position, determining that she

23a

could complete certain tasks adequately but still
required some supervision and had room for
improvement. See id. at 16-18. Webster has not
produced sufficient evidence to show that Gill based
his reward recommendation on anything but these
legitimate, nondiscriminatory grounds.
In 2011, Webster received no on-the-spot
awards for outstanding performance despite herbelief
that she deserved one. Def.’s Facts 78-80. Webster
did not highlight a special project or act that she
accomplished that would have merited such an award.
Def.’s Ex. 35 at 28-29. And Gill was unaware of any
such accomplishments. Id. at 39—40. Webster has
produced no evidence to support that she should have
received an on-the-spot award or that a decision not to
give her one was motived by illegitimate,
discriminatory intent.
For 2015, Webster received a bonus of $403.
Def.’s Facts J 110. Her 2015 bonus was based on
Croley’s review that concluded she was meeting
expectations for her position and level
of
compensation. Def.’s Ex. 37 at 21. Webster believes
that her 2015 bonus should have been higher, since
Williams had given her a glowing review in 2014 and
her 2014 bonus was for $750. Pl.’s Facts at 13. But
Webster supplies no evidence that Croley based his
rating on anything but the legitimate rationales given
in her 2015 review. In fact, two other secretaries in
Webster’s division, neither of whom had participated
in EEO activity, received equal or worse ratings.
Def.’s Ex. 37 at 39-41.
Promotion opportunities. A successful failure to
hire claim requires, among other things, that the
employee “applied for and was qualified for an
available position.” Cones u. Shalala, 199 F. 3d 512,

24a

516 (D.C. Cir. 2000). The Navy did not hire Webster
for the GS-08 secretary position for a simple reason:
She didn’t apply for it. See Pl.’s Opp. at 34. She
“believes” that she “should have been given the
opportunity to be promoted” and that Navy officials
“did not want her to apply.” Id. But even if those
beliefs were relevant, Webster cites no evidence to
support them. See id. The position was not advertised
as a government vacancy, see Def.’s Ex. 37 at 8,
because the Navy was transitioning from using
government employees to contractors to fill secretarial
positions as those positions became vacant, see id. at
26; id. at 237. And the Navy ultimately hired a
contractor, not a government employee, to fill the
position. Id. at 7.
The Navy did not hire Webster for the
management analyst position because she was not
qualified for it. See Cones, 199 F. 3d at 516. Webster’s
score on the self-reported occupational questionnaire
was too low for Webster to make the list of eligible
candidates, and so she was notamong the candidates
that her branch considered. Def.’s Facts Tff 125-126.
Webster believes that Stout, the person in
Washington state who assembled the list of eligible
candidates, “colluded” with hiring officials in
Webster’s branch to eliminate Webster from the list of
eligible candidates. Pl.’s Opp. at 42. Not only does
Webster have no evidence to support this claim, she
also has none to rebut the Navy’s evidence that her
score of 86 was below the eligibility cutoff. See id. at
42-44.
2.

Hostile Work Environment Claim
That

leaves

Webster’s

25a

hostile

work

environment claim. To establish a discriminatory or
retaliatory hostile work environment claim, “a
plaintiff must show that his employer subjected him
to ‘discriminatory intimidation, ridicule, and insult’
that is ‘sufficiently severe or pervasive to alter the
conditions of the victim’s employment and create an
abusive working environment.’” Baloch, 550 F.3d at
1201 (quoting Harris v. Forklift Sys., Inc., 510 U.S. 17,
21 (1993)); see also Bergbauer v. Mabus, 934 F. Supp.
2d 55, 79, 82-83 (D.D.C. 2013) (collecting cases
establishingthat “the same legal standard” applies to
discriminatory and retaliatory hostile
work
environmentclaims). Courts examine “the totality of
the circumstances, including the frequency of the
discriminatory conduct, its severity, its offensiveness,
and whether it interferes with an employee’s work
performance.” Id. Title VII is not a “general civility
code”; the alleged conduct “must be extreme to amount
to a change in the terms and conditions of
employment.” Faragher v. City of Boca Raton, 524
U.S. 775, 788 (1998) (internal quotation marks
omitted); see also Baloch, 550 F.3d at 1201. And the
alleged conditions must be both “objectively and
subjectively hostile, meaning that a reasonable person
would find [the work environment] hostileor abusive,
and that the victim must subjectively perceive the
environment to be abusive.” Hill v. Assocs. for
Renewal in Educ., Inc., 897 F.3d 232, 237 (D.C. Cir.
2018) (alteration adopted and internal quotation
marks omitted).
Webster claims she faced a hostile work
environment claim based on her race and in
retaliation for past EEO activity when: she received
her 2010 performance appraisal; Gill issuedthe March
2010 letter of requirement concerning her leave usage;

26a

Gill allegedly denied her May5, 2011 leave request;
Gill issued the June 2011 letter of reprimand for
disobeying the chain of command; she received her
2011 performance appraisal; she received her 2012
close-out appraisal; and she was placed on paid
administrative leave while the Navy investigated her
security clearance issue. See Def.’s Exs. 9, 11, 17.
None of these allegations, whether alone or
together, are sufficiently severe or pervasive to
sustain a hostile work environment claim. First, the
allegations span five years and involve different
supervisors. See Nurriddin v. Bolden, 674 F. Supp. 2d
64, 94 (D.D.C. 2009) (dismissing a hostile work
environment claim, in part because “the alleged
events [we]re temporally diffuse, spread out over a
four-year period, suggesting a lack of pervasiveness”).
Second, they are not the “extreme conditions” that
“constitute a hostile work environment.” Hill, 897
F.3d at 237. Webster’s grievances instead are
“ordinary tribulations of the workplace.” Faragher,
524 U.S. at 788. Webster’s appraisals were
acceptable; the narratives were ordinary, not
demeaning. In fact, they “recommended areas of
improvement—hardly the stuff of severe or pervasive
workplace hostility.” Brooks v. Grundmann, 748 F.3d
1273, 1277 (D.C. Cir. 2014). The letter of requirement
was thoroughly justified, based on Webster’s history
of leave usage, and such restrictions are generally
insufficient to sustain a hostile work environment
claim. See Baloch, 550 F.3d at 1195. Even if Gill
initially denied Webster’s May 2011 leave request, all
agree that he subsequently granted a modified one.
Theletter of reprimand was sound given that Webster
had again flouted the chain of command, squarely
violating the earlier letter of direction. And the Navy’s

27a

well-justified decision to placeWebster on paid leave
while it resolved her security clearance issue was
hardly abusive. In short, these actions were all “far
from severe” enough to support a hostile work
environment claim. Brooks, 748 F.3d at 1276.
Third and finally, Webster has failed to
establish any evidentiary link between the alleged
hostile behavior and either her race or her protected
EEO activity. Her fundamental premise is that as a
longtime Navy employee with a college education, her
career should not have stalled in neutral for nearly
two decades. See Pl.’s Reply at 4, Dkt. 73. She believes
that discrimination and relation must be to blame. See
id. But no matter how sincere this belief is, summary
judgment requires evidence. On that requirement,
Webster comes up short.
CONCLUSION
For the foregoing reasons, the Court grants in
part and denies as moot in part the Navy’sMotion to
Dismiss and for Summary Judgment, and the Court
denies Webster’s Cross-Motion for Summary
Judgment. A separate order accompanies this
memorandum opinion.
/a/
DABNEY L. FRIEDRICH
May 01, 2020
United States District Judge

28a

APPENDIX G

U.S. EQUAL EMPLOYMENT
OPPORTUNITY COMMISSION Office
of Federal Operations
P.O. Box 77960
Washington, DC
20013
Katrina Webster,
a/k/aRosamaria F.,1
Complainant,
v.
Thomas B. Modly,
Acting
Secretary,
Department of the
Navy,Agency.
Appeal No. 0120181068
Agency No. DON-1700030-01579
DECISION
On February 6, 2018, Complainant filed an
appeal with the Equal Employment Opportunity
1 This case has been randomly assigned a pseudonym which
will replace Complainant’s namewhen the decision is published
to non-parties and the Commission’s website.

29a

Commission (EEOC or Commission), pursuant to 29
C.F.R. § 1614.403(a), from the Agency’s January 8,
final decision concerning her equal
2018
employment opportunity (EEO) complaint alleging
employment discrimination in violation of Title VII of
the Civil Rights Act of 1964 (TitleVII), as amended,
42 U.S.C. § 2000e et seq. For the following reasons,
the Commission MODIFIES and REMANDS the
Agency’s final decision for further processing.
ISSUES
+PRESENTED
Whether the Agency subjected Complainant to
discriminatory harassment on the bases of race
(African-American) and reprisal when her first-line
supervisor allegedly permitted
a working
environment where she was subjected to a hostile
work environment by a contract employee.
Whether the Agency’s anti-harassment policy
adequately addresses the Agency’s legal obligation
to prevent harassment in the workplace in
accordance with the Commission’s Management
Directive 715 (MD-715).
BACKGROUND
At the time of events giving rise to this complaint,
Complainant worked as a Secretary, NK-0318-II, for
Strategic Systems Programs Headquarters at the
Washington Navy Yard in Washington, D.C.

30a

On May 20, 2017, Complainant filed an EEO
complaint alleging that the Agency discriminated
against her on the bases of race (African-American)
and in reprisal for prior protected EEO activity
arising under Title VII when on or about March 3,
2017, her first line supervisor allegedly permitted a
working environment where she was subjected to a
hostile work environment by a contract employee
(Information Technology Manager, Caucasian).
During the EEO investigation, Complainant
recounted several incidents of harassment by the
contract employee. Specifically, Complainant
alleged that the contract employee told another
employee, “If you see [Complainant] turn the other
way.” Complainant maintained that the contract
employee also referred to Complainant as “trouble”
and allegedly told Complainant’s new Assistant
Branch Chief to “watch out for [Complainant].” She
declared that the contract employee sought to
dissuade her from engaging in EEO activity by
making statements that were critical of her prior
EEO activity and even tried to remove a printer
from her desk. She reasoned that the contract
employee may have learned about her prior EEO
activity from her supervisor, an individual whom
she had previously named as a responsible
management official and/or witness in 18 EEO
complaints
(excluding
instant
complaint).
Complainant indicated that she became very
suspicious about the true motivations of the contract
employee when the Agency’s EEO counselor only
spoke to her supervisor and the Assistant Branch
Chief during the informal EEO process anddid not
interview the contract employee or other witnesses.

31a

She emphasized that management didnot respond
to her cries for help and that the Agency’s
harassment
policies
only
address
sexual
harassment and never nonsexual harassment.
At the conclusion of the investigation, the Agency
provided Complainant with a copy of the report of
investigation and notice of her right to request a
hearing before an EEOC Administrative Judge(AJ).
In accordance with Complainant’s request, the
Agency issued a final decision pursuant to 29 C.F.R.
§ 1614.110(b). The decision concluded that
Complainant failed to prove that the Agency
subjected her to discrimination as alleged.
ANALYSIS AND FINDINGS
As this is an appeal from a decision issued without a
hearing, pursuant to 29 C.F.R. § 1614.110(b), the
Agency’s decision is subject to de novo review by the
Commission. 29 C.F.R. § 1614.405(a). See Equal
Employment Opportunity Management Directive
for 29 C.F.R. Part 1614 (EEO MD- 110), at Chapter
9, § VI.A. (Aug. 5, 2015) (explaining that the de novo
standard of review “requires that the Commission
examine the record without regard to the factual
and legal determinations of the previous decision
maker,” and that EEOC “review the documents,
statements, and testimony of record, including any
timely and relevant submissions of the parties, and
... issue its decision based on the Commission’s own
assessment of the record and its interpretation of
the law”).

32a

Harassment Claims
For Complainant to prevail on her allegation of
harassment, she must show that: (1) she belongs to a
statutorily protected class; (2) she was subjected to
harassment in the form of unwelcome verbal or
physical conduct involving the protected class; (3) the
harassment complained of was based on her
statutorily protected class; (4) the harassment
affected a term or condition of employment and/or
had the purpose or effect of unreasonably interfering
with the work environment and/or creating an
intimidating, hostile, or offensive work environment;
and (5) thereis a basis for imputing liability to the
Agency. See Henson v. City of Dundee. 682 F.2d 897
(11thCir. 1982). The harasser’s conduct should be
evaluated from the objective viewpoint of a
reasonable person in the victim's circumstances.
Enforcement Guidance on Harris v. Forklift Systems.
Inc.. EEOC Notice No. 915.002 at 6 (Mar. 8, 1994).
Further, the incidents must have been “sufficiently
severe or pervasive to alter the conditions of
complainant’s employment and create an abusive
working environment.” Harris v. Forklift Systems,
Inc.. 510 U.S. 17, 21 (1993); see also Oncale v.
Sundowner Offshore Services. Inc.. 23 U.S. 75 (1998).
To establish a claim of retaliatory harassment by a
coworker (in addition to showing that the
harassment is motivated by protected EEO conduct),
Complainant must show that: (1) the coworker’s
retaliatory conduct is sufficiently severe so as to
dissuade a reasonable worker from making or
supporting a charge of discrimination; (2) supervisors
or members of management have actual or
constructive knowledge of the coworker’s retaliatory
behavior; and (3) supervisors or members of
33a

management
have
condoned,
tolerated,
or
encouraged the acts of retaliation, or have responded
to the complaints so inadequately that the response
manifests indifference or unreasonableness under
the circumstances. Hawkins v. Anheuser Busch. Inc..
517 F.3d 321 (6th Cir.2008); See Burlington
Northern & Santa Fe Railway Co. v. White. 548 U.S.
53, 68 (2006); see also. Owen v. Peake. 2008 WL
4449011, at 4 (S.D. Ohio 2008); Satterfield v. Karnes.
736 F. Supp.2d 1138, 1170 (S.D. Ohio 2010).
After careful consideration of the record, we conclude
that the Agency properly found that Complainant
failed to persuasively show that she was subjected to
a hostile work environment. In reaching this
conclusion, we considered Complainant’s contention
that the contract employee subjected her to
harassment on the bases of race and reprisal;
however, we find that the preponderant evidence
fails to establish a causal link between the contract
employee’s actions and Complainant’s protected
characteristics.2
Regarding the printer incident, we note that the
contract employee stated that he allowed
Complainant to keep her printer as a courtesy even
though he was technically required to take away
2 Because Complainant has failed to demonstrate a causal link
between the alleged harassment and her protected
characteristics, we need not consider whether the alleged
harassment affected a termor condition of employment and/or
had the purpose or effect of unreasonably interfering with the
work environment and/or creating an intimidating, hostile, or
offensive work environment.

34a

Complainant’s printer because a Presidential
Directive required agencies to reduce their IT
equipment footprints.
The Chief Information Officer, in contrast, averred
that the contract employee removed Complainant’s
printer because the Agency implemented a “Printer
Reduction Plan.” While we note that there is a
discrepancy as to whether the contract employee
removed Complainant’s printer, we find that the
preponderant evidence fails to show that the contract
employee acted with discriminatory or retaliatory
motive with regard to Complainant’s printer.
As for the alleged remarks, the record reflects that the
contract employee admitted that he said, “Here comes
trouble,” as Complainant approached him; however,
he explained that he made the comment in jest
because Complainant always turned to him for
assistance with IT issues even though he did not deal
with everyday IT issues. The contract employee,
however, outright denied telling Complainant’s
colleagues to “turn the other way” and “watch out for
her.”
While
we
acknowledge Complainant’s
disagreement
with
the
contract
employee’s
explanations, we note that Complainant requested a
final decision from the Agency. In so doing,
Complainant waived her right to request a hearing
before an EEOC Administrative Judge, where she
could have engaged in discovery and crossedexamined witnesses such as the contract employee.
Therefore, we can only evaluate the facts based on the
weight of the evidence presented to us. Based on the
totality of the record before us, we find that
Complainant has not established that she was

35a

subjected to harassment on the bases alleged.
Breach of EEO Confidentiality
Notwithstanding our finding of no discrimination with
regard to Complainant’s alleged harassment claims,
we find that the Agency subjected Complainant to
discrimination on the basis of reprisal when
Complainant’s supervisor revealed Complainant’s
protected EEO activity to the Fire Control and
Guidance Branch Deputy. We remind the Agency that
complainants are generally entitled to confidentiality
with regard to their EEO complaints.3 Our review of
the affidavit from the Fire Control and Guidance
Branch Deputy shows that the Agency fell short of its
legal obligation to ensure confidentiality.
As a general matter, the statutory anti-retaliation
provisions prohibit any adverse treatment that is
based on a retaliatory motive and is reasonably likely
to deter a reasonable employee from engaging in
protected activity. Burlington N. and Santa Fe Rv. Co.
v. White. 548 U.S. 53 (2006).Although petty slights
and trivial annoyances are not actionable, adverse
actions or threats to take adverse actions such as

3 We note that an agency cannot guarantee complete
confidentiality, because it cannot conduct an effective
investigation without revealing certain information to the
alleged harasser and potential witnesses. However, information
about the allegation of harassment should be shared only with
those who need to know about it. Records relating to harassment
complaints should be kept confidential on the same basis. See
Enforcement Guidance on Retaliation. Part V(C)(l)(c)
(“Confidentiality”).

36a

reprimands, negative evaluations, and harassment
are actionable. Enforcement Guidance on Retaliation
and Related Issues. EEOC Notice No. 915.004
(Enforcement Guidance on Retaliation!, at § II. B.
(Aug. 25, 2016).
Given the importance of maintaining “unfettered
access to [the] statutory remedial mechanisms” in the
anti-retaliation provisions, we have found a broad
range of actions to be retaliatory. For example, we
have held that a supervisor threatening an employee
by saying, “What goes around, comes around” when
discussing an EEO complaint constitutes reprisal.
Vincent v. U.S. Postal Serv.. EEOC Appeal No.
0120072908 (Aug. 3, 2009), req. for recons, den..
EEOC Request No. 0520090654 (Dec. 16, 2010). We
have also found that a supervisor attempting to
counsel an employee against pursuing an EEO
complaint “as a friend,” even if intended innocently, is
reprisal. Woolf v. Dep’t of Energy. EEOC Appeal No.
0120083727 (June 4, 2009) (violation found when a
Labor Management Specialist told the complainant,
“as a friend,” that her EEO claim would polarize the
office).
Similarly, the Commission has held that disclosure of
EEO activity by a supervisor to coworkers constitutes
reprisal. Complainant v. Dep’t of Justice. EEOC
Appeal No. 0120132430 (July 9, 2015) (reprisal found
where a supervisor broadcasted complainant’s EEO
activity in the presence of coworkers and
management); see also Melodee M. v. Dep’t of
Homeland Sec.. EEOC Appeal No. 0120180064 (June
14, 2019) (affirming agency’s finding of reprisal when
complainant’s second level supervisor disclosed
37a

complainant’s EEO activity to others). We have also
found reprisal where a human resources (HR)
employee inadvertently negatively left a message on a
complainant’s voicemail regarding the settlement of a
prior EEO complaint. Complainant v. Dep’tof Justice.
EEOC Appeal No. 0720120032 (May 1, 2014)
(complainant subjected to retaliation when a HR
employee and coworker inadvertently left message on
complainant’s work voicemail berating her and using
strong language while discussing settlement of
complainant’s prior EEO complaint);
In this case, the record clearly shows that the Fire
Control and Guidance Branch Deputy, when
questioned
about
how
she
learned
about
Complainant’s prior EEO activity, responded with the
following: “I was told by the Branch Head at the time,
[Complainant’s supervisor], that [Complainant] has
made EEO complaints in the past.” See Affidavit of
T.J.Y., Complaint File, pg. 9. By the Agency’s own
admission, the Fire Control and Guidance Branch
Deputy did not supervise Complainant. See
Memorandum from Agency Representative, id. at pg.
5. As such, Complainant’s supervisor should not have
disclosed Complainant’s prior EEO activity to the Fire
Control and Guidance Branch Deputy. We find that
this disclosure, on its face, discourages participation
in the EEO process and constitutes reprisal.
In reaching this conclusion, we are mindful that
Complainant did not allege that she was subjectedto
discrimination on the basis of reprisal when her
supervisor disclosed her protected EEO activityto the
Fire Control and Guidance Branch Deputy.
Nevertheless, in our prior decisions, we have found

38a

reprisal even where a complainant did not claim
reprisal. For example, in Light v. Den’t ofVet. Aff..
EEOC Appeal No. 0120111229 (Nov. 22, 2011), the
Commission affirmed the agency’s finding of reprisal
when complainant’s second-level supervisor admitted
to telling complainant that she took offense at
complainant’s complaints about discrimination, req.
for recons, den.. EEOC Request No. 0520120207 (June
6, 2012).
Though the complainant in Light did not raise
reprisal as a basis, the Commission affirmed the
agency’s finding that the evidence developed during
the EEO investigation violated the “letter andspirit of
EEO law which requires agencies to promote and
support the full realization of equal employment
opportunity.” As in Light, supra, we too conclude that
the evidence in this case manifestly demonstrates a
violation of the “letter and spirit of EEO law which
requires agencies to promote and support the full
realization of equal employment opportunity.” The
only question that remains for us to decide is the
appropriate remedy.
To remedy findings of discrimination, the Commission
is authorized to award compensatory damages as part
of “make whole” relief for a complainant. However, not
all violations necessarily entitle a complainant to
individual relief. Vincent v. U.S. Postal Serv., EEOC
Appeal No.0120072908 (Aug. 3, 2009) (citing Binseel
v. Dep’t of the Army. EEOC Request No. 05970584
(Oct. 8, 1998)). Rather, the action giving rise to the
damages must be intentional. Id.
Our prior decisions establish that complainants are
entitled to compensatory damages for the unlawful
39a

disclosure of their EEO activity. For example, in Light,
supra, we awarded compensatory damages even
though Complainant did not prevail on any of her
individual claims of discrimination. In rejecting the
agency’s conclusion that complainant was not entitled
to compensatory damages because she did not prevail
on her underlying claims, we expressly foundthat the
complainant was indeed entitled to compensatory
damages because the agency’s actions were likely to
deter protected activity by complainant or others. Id.
The Commission has also awarded compensatory
damages even where the agency claimed that the
unlawful disclosure of a complainant’s EEO activity
was inadvertent. See Candi R. v. Envtl. Prot. Agency.
EEOC Appeal No. 0120171394 (Sept. 14, 2018)
(holding that the asserted inadvertent nature of the
disclosure of complainant’s EEO activity did not
negate the fact that sending these emails to all her
colleagues would be reasonably likely to deter an
employee from engaging in EEO activity and
therefore constituted reprisal warranting the
imposition of compensatory damages); req. for recons,
den.. EEOC Request No. 2019000393 (Feb. 8, 2019).
Weshall do the same in this case, as it clear from the
record that
Complainant’s
supervisor
acted
affirmatively (i.e.. made the disclosure) to unlawfully
disclose Complainant’s protected EEO activity. See
also Melodee M.. supra.
For the above reasons, we find that Complainant was
subjected to unlawful reprisal in the disclosure of her
EEO activity by her supervisor and that compensatory
damages may be awardedshould Complainant be able
to show she suffered a compensable harm as a result of
40a

the disclosure.
Sufficiency of the Agency’s Anti-Harassment Policy
As we have serious concerns regarding the Agency’s
handling of harassment claims, particularly with
regard to the Agency’s legal obligation to ensure the
confidentiality of such claims, we take this
opportunity to review the Agency’s anti-harassment
policy in its entirety. See Executive Order11478, Sec.
3 (“The Equal Employment Opportunity Commission
shall be responsible for directing and furthering the
implementation of the policy of the Government of the
United States to provide equal opportunity in Federal
employment for all employees or applicants for
employment.”). After careful consideration of the
record, we find that the Agency’s anti- harassment
policy does not adequately address the Agency’s legal
obligation to prevent harassment in the workplace.4
We conclude that the Agency’s anti-harassment policy
is not in accord with the Commission’s Management
Directive 715 (MD-715) because the Agency’s policy
statement does not effectively communicate EEO
policies and procedures regarding harassment.
Because the preponderant evidence suggests this
failure may have contributed to the unlawful
disclosure of Complainant’s protected EEO activity, as
discussed above, we remind the Agency of its legal
obligations as set forth below and direct the Agency to
comply with the remedial actions listed in the Order
herein.
4 We note that in the Report of Investigation Complainant
raised concerns about the lack ofinformation about non-sexual
harassment being posted in her workplace.

41a

Federal Agencies Are Legally Obligated to Establish
and Maintain Effective Anti-Harassment Programs
The Commission’s MD-715 is the policy guidance
which the Commission provides to federal agencies for
their use in establishing and maintaining effective
programs of equal employment opportunity under
Title VII and the Rehabilitation Act. MD-715 provides
a roadmap for ensuring that all employees and
applicants for employment enjoy equality of
opportunity in the federal workplace regardless of
race, sex, national origin, color, religion, disability,
or reprisal for engaging in prior protected EEO
activity. Compliance with MD-715 is mandatory for all
Executive agencies. See MD-715 (“Responsibilities”)
(“Agency Heads are responsible for the following: 1.
Ensuring compliance with this Directive and those
implementing instructions issued by EEOC in
accordance with existing law and authority.”). See
also 29 C.F.R. § 1614.103(b)(2) (“This part applies to...
Executive agencies as defined in 5 U.S.C. 105...”); and
29 C.F.R. § 1614.102(e) (“Agency [EEO] programs
shall comply with this part and the Management
Directives and Bulletins that the Commission
issues.”) (emphasis added).
It is critical to understand the legal requirements with
which agencies must comply in order to avoid liability
for harassment. Following the United States Supreme
Court’s decisions in Faragherv. City of Boca Raton.
524 U.S. 775 (1998) and Burlington Indus, v. Ellerth,
524 U.S. 742 (1998), the Commission issued
Enforcement Guidance: Vicarious Employer Liability
for Unlawful Harassment by Supervisors in 1999,

42a

advising employers (both public and private sector) to
establish anti-harassment policies that contain, at a
minimum, the following elements:
•
A clear explanation of prohibited conduct,
including a reference to all of the protectedbases;
•
Assurance that employees who make claims of
harassment or provide information related to such
claims will be protected against retaliation;
•
A clearly described complaint process that
provides accessible avenues for complainants;
•
Assurance that to the extent possible, the
employer will protect the confidentiality of the
individuals bringing harassment claims;
•
A complaint process that provides a prompt,
thorough, and impartial investigation; and
•
Assurance that the employer will take
immediate and appropriate corrective action when it
determines that harassment has occurred.
The Commission subsequently issued MD-715 on
October 1, 2003, which applied the minimum
standards and guidelines set forth in Faragher. supra
and Ellerth. supra to the federal sector (i.e.. federal
agencies). See Model EEO Programs Must Have An
Effective Anti-Harassment Program, n. 8.5 Sections II
(A) and (C) of MD-715 expressly require federal
agencies to establish and maintain effective
5 MD-715 provides that “[t]he EEOC will also supplement this
Directive on an as-needed basis through the issuance of
additional guidance and technical assistance.” See MD-715
(“Introduction”). Also, our report, Model EEO Programs Must
Have An Effective Anti- Harassment Program, is available
https://www.eeoc.gov/federal/model_eeo_programs.cfm.

43a

affirmative
programs
of equal
employment
opportunity, which show demonstrated commitment
from agency leadership and ensure management and
program accountability. To this end, agencies must
issue a written policy statement signed by the agency
head that expresses commitment to EEO and a
workplace free of discriminatory harassment, and the
development of a comprehensive anti-harassment
policy to prevent harassment on all protected bases,
including race, color, religion, sex (sexual or
nonsexual), national origin, age, disability, and
reprisal. In this regard, a comprehensive anti­
harassment policy that complies with MD-715 should:
establish a separate procedure outside of the EEO
complaint process; require a prompt inquiry of all
harassment allegations to prevent or eliminate
conduct before it rises to the level of unlawful
harassment; establish a firewall between the EEO
Director and the Anti-Harassment Coordinator to
avoid a conflict of interest; and ensure that the EEO
Office informs the anti- harassment program of all
EEO counseling activity alleging harassment. See
Instructions to Federal Agencies for MD-715 Section I
The Model EEO Program. Part III. Element C (B); see
also Enforcement Guidance: Vicarious Employer
Liability for Unlawful Harassment by Supervisors.
Part V(C)(l)(“Policy and Complaint Procedure”).
It is simply not enough to create an anti-harassment
policy. MD-715 expressly requires agencies to
effectively communicate EEO policies and procedures
to all employees. Specifically, agencies must inform
their employees of their rights and responsibilities
pursuant to the EEO process, anti- harassment
program, alternative dispute resolution (ADR)
44a

process, reasonable accommodation program, and
behaviors that could result in discipline. Methods of
dissemination include training, webinars, brochures,
emails, or other types of written communication.
Instructions to Federal Agencies for MD-715 Section I
The Model EEO Program, Part I. Element A (B).
We remind agencies that failure to effectively
communicate anti-harassment policies not only
violates MD-715 but may also expose them to liability.
In this regard, we note that the first prong of the
affirmative defense for harassment liability under
Faragher. supra, and Ellerth, supra, requires a
showing by the employer that it undertook reasonable
care to prevent and promptly correct harassment.
Such reasonable care generally requires an employer
to establish, disseminate, and enforce an anti­
harassment policy and complaint procedure and to
take other reasonable steps to prevent and correct
harassment. We emphasize that a federal agency’s
formal, internal EEO complaint process does not, by
itself, fulfill its obligation to exercise reasonable care.
That process only addresses complaints of violations
of the federal EEO laws, while the Court, in Ellerth.
made clear that an employer should encourage
employees “to report harassing conduct before it
becomes severe or pervasive.” Ellerth. 118 S. Ct. at
2270. Furthermore, the EEO process is designed to
assess whether the agency is liable for unlawful
discrimination and does not necessarily fulfill the
agency’s obligation to undertake immediate and
appropriate corrective action. See Enforcement
Guidance:Vicarious Employer Liability for Unlawful
Harassment bv Supervisors at n. 57.

45a

In this case, while we acknowledge that the Agency
issued a Workplace Anti-Harassment Policy
Statement on May 1, 2018, outlining its obligation to
prevent harassment, we conclude that this policy fails
to effectively communicate EEO policies and
procedures in accordance with MD-715because it does
not: 1) clearly establish the complaint procedure,
including the appropriate channels for filing a
complaint, that is separate from the EEO process; and
2) ensure confidentialityto the extent possible.
Failure to Clearly Describe the Complaint Procedure
Regarding the first deficiency, we note that the
Agency’s
Workplace
Anti-Harassment
Policy
Statement states that “any Sailor, Marine, or civilian
employee who encounters workplace harassment
should report the incident through appropriate
channels.” As noted above, however, MD-715 requires
agencies to clearly inform their employees of their
rights and responsibilities pursuant to their anti­
harassment programs. While we acknowledge that
the Agency’s policy statement informs employees of
their right to “report the incident through appropriate
channels,” we find this rather vague statement to be
inconsistent with MD-715 because it does not notify
employees of who they may approach to raise claims.
As explained in our report, Model EEO Programs
Must Have An Effective Anti-Harassment Program, a
model EEO program must clearly describe the
complaint process, particularly the agency officials
who can receive harassment claims. We further
explained in our report that agencies, in establishing
model EEO programs, should consider designating at
least one official outside an employee’s chain of

46a

command to accept claims of harassment. Indeed,
agencies should ideally provide multiple points of
contact for the employee, such that all claims need not
go through the chain of command. In this case, it is
clear that the Agency did not designate anyone to be
the “go to” person for reporting harassment, muchless
multiple points of contact.6
We emphasize the importance of clearly delineating
channels of communication for reporting harassment,
particularly in light of cases such as this where a
complainant does not feel comfortable approaching
the very people who are responsible for the conduct
they are reporting or have reported in the past.7
Moreover, we note that agencies, as part of their legal
obligation to establish procedures to preventall forms
of discrimination, including harassment, must
identify the investigation process, including where to
file the complaint, who will conduct the investigation,
and who will make the decision for corrective action.
See Model EEO Programs Must Have An Effective
Anti- Harassment Program, Part I (C). Here, our
6 We acknowledge that the ROI contains PowerPoint slides titled
“EEO Essentials for Non- Supervisory Personnel” that contains
the contact information for the Agency’s EEO personnel. ROI, pg.
000122. We emphasize, however, that MD-715 still requires
agencies to establish and maintain written anti-harassment
policies consistent with MD-715.
7 In her rebuttal to her supervisor’s affidavit, Complainant stated
that she did not discuss the contract employee’s comments with
her supervisor because, for all she knew, her supervisor could
have been the person who discussed her prior protected EEO
activity with the contract employee, which led the contract
employee to call her “trouble.” ROI, pg. 239.

47a

review of the Agency’s Workplace Anti-Harassment
Policy Statement, shows that the Agency simply noted
that its anti-harassment policy is “separateand apart
from any administrative, negotiated grievance, or
statutory complaint process that covers allegations of
harassment, such as the Equal Employment
Opportunity complaint process.” Thereis no mention
of where an employee must go to file a complaint, who
will conduct the investigation, and who will make the
decision for corrective action. To fulfill its legal
obligations under MD-715, the Agency should develop
complaint procedures that are separate from the EEO
process and clearly establish the complaint procedure
in accordance with our guidelines. See Model EEO
Programs Must Have An Effective Anti-Harassment
Program.
To establish a clearly-described complaint process, the
policy must contain the time frames and responsible
officials for the intake, investigation, and decision­
making stages of the process. Two EEOC appellate
decisions provide guidelines for time frames involving
prompt investigations and immediate corrective
actions. For the investigation to be prompt, an EEOC
decision found the agency should have started the
investigation within 10 days of receiving notice of a
harassment allegation. See Complainant v. Den’t of
Veterans Affairs. EEOC Appeal No. 0120123232 (May
21, 2015); see also MD-715, Part G, Question C.2.a.5.
As to immediate corrective actions, another EEOC
decision found the agency should have reached a
decision and taken corrective action within60 calendar
days of receiving notice of the allegation. See Tammv
S. v. Dep’t of Defense (Defense Intelligence Agency),
EEOC Appeal No. 0120084008 (June 6, 2014). As
48a

such, the Agency’s policy must include time frames for
the intake, investigation, and decision-making stages
of the anti-harassment complaint process.
Failure to Ensure Confidentiality to the Extent
Possible Finally, with regard to the second deficiency,
we again remind the Agency that complainants are
generally entitled to confidentiality with regard to not
only their EEO complaints, but their claims of
harassment as well. Indeed, the right to confidentiality
is an important hallmark of a model EEOprogram.
As explained in our Enforcement Guidance: Vicarious
Employer Liability for Unlawful Harassment by
Supervisors, an employer should clearly inform its
employees that it will protect the confidentiality of
harassment allegations to the extent possible. See
Enforcement Guidance: Vicarious Employer Liability
for Unlawful Harassment by Supervisors.. Part
V(C)(l)(c) (“Confidentiality”). While we recognize that
an
employer
cannot
guarantee
complete
confidentiality, since it cannot conduct an effective
investigation without revealing certain information to
the alleged harasser and potential witnesses,
information about the allegation of harassment
should be shared only with those who need to know
about it. Records relating to harassment complaints
should be kept confidential on the same basis. IcL
Federal agencies, as partof their legal obligation to
establish and maintain model EEO programs under
MD-715, must ensure the confidentiality of all
harassment allegations, to the extent possible, and
effectively communicate to employees that their EEO
activity will not be disclosed without their
authorization, except in limited circumstances as

49a

provided by law.
Our review of the Agency’s Workplace AntiHarassment Policy Statement reveals serious
shortcomings with regard to this obligation. In this
regard, we note that the Agency’s policy statement
makes no assurances that the Agency will protect the
confidentiality of individuals bringing harassment
complaints to the fullest extent possible. In fact, the
Agency’s policystatement contains no mention of any
right to confidentiality.
This is a clear failure to communicate, which
undermines the effectiveness of the Agency’s anti­
harassment program, as managers may unknowingly
violate the law and employees may be discouraged
from reporting harassment without assurances of
MD-715
expressly
requires
confidentiality,
management and program accountability, which
involves putting employees and management officials
on notice of their rights and responsibilities. As was
demonstrated in this case where a Complainant’s
supervisor disclosed her EEO activity to someone
without a need to know, it is critically important that
an agency’s anti-harassment policy inform its
employees of the legal obligation to ensure the
confidentiality of Complainant’s protected EEO
activity, including harassment allegations.
Summary of Policy Deficiencies and Corrective Action
The Commission finds that the Agency’s Workplace
Anti-Harassment Policy Statement does notmeet the
standards as required by MD 715, our Enforcement
Guidance: Vicarious Employer Liability for Unlawful
Harassment bv Supervisors and our Model EEO

50a

Programs Must Have An Effective Anti-Harassment
Program guidance. In particular, the Agency’s policy
does not set out with specificity the complaint
procedures by which an employee may raise a claim of
harassment,including time frames for the processing
of the harassment allegations as well as naming
officials who can receive such claims. Second, the
Agency’s policy does not provide notice of the requisite
confidentiality accorded to the filing of claims of
harassment.
Pursuant to 29 C.F.R. § 1614.501(a)(2), to remedy a
finding of discrimination, the Commission may order
an agency to provide corrective, curative or preventive
actions to ensure that violations of the law similar to
those found will not recur. Here, as discussed above,
the Agency’s anti- harassment policy does not comply
with the Commission’s MD-715 policy guidance
because it does not clearly establish the complaint
procedure, including the appropriate channels for
filing a complaint, and ensure confidentiality to the
extent possible. We would be remiss to take no action
to correct the Agency’s clear violations of MD-715. As
the Agency is not in compliance with MD- 715
regarding its anti-harassment policy,
under
circumstances that are capable of being repeated, we
order the Agency to seek technical assistance from the
Commission’s Office of Federal Operations, Federal
Sector Programs, and to correct the deficiencies in the
policy identified above. This will ensure that the
agency is taking the necessary preventive steps to
avoid liability for harassment in the future.
CONCLUSION
Based on a thorough review of the record, we
51a

MODIFY the Agency’s final decision as set forth
herein and REMAND the matter to the Agency for
further processing in accordance with the ORDER
below.
ORDERS
1. Within ninety (90) calendar days of the
date this decision is issued, the Agency shall
undertake a supplemental investigation
concerning Complainant’s entitlement to
compensatory damages and determine the
amount of compensatory damages due
Complainant in a final decision with appeal
rights to the Commission.
The Agency shall pay this amount to
Complainant within thirty (30) calendar
days of the date of the determination of the
amount of compensatory damages. If there is
a dispute regarding the exact amount of
compensatory damages, the Agency shall
issue a check to Complainant for the
undisputed amount. Complainant may
petition for enforcement or clarification of the
amount in dispute. The petition for
clarification or enforcement must befiled with
the Compliance Officer, at the address
8 Because the record reflects that the responsible management
official (Complainant’s supervisor) is an active duty military
officer, we cannot order the Agency to provide training and
consider disciplinary action, as we have no authority over active
duty military personnel.

52a

referenced in the
“Implementation of
Decision.”

statement entitled
the
Commission’s

2. Within thirty (30) calendar days of the date
of this decision, the appropriate Agency EEO
component shall request technical assistance
from the EEOC, Office of Federal Operations,
Federal Sector Programs (FSP), on revising
its anti-harassment policy to conform to the
standards set forth in MD-715.
Within sixty (60) calendar days of the date this
decision, the Agency shall revise its anti-harassment
policy to FSP’s satisfaction, and the Agency shall
promptly reissue a new anti- harassment policy
statement signed by the agency head.
To fulfill its legal obligation to effectively
communicate EEO policies and procedures to all
employees, the Agency shall disseminate its revised
anti-harassment policy statement within thirty
(30) calendar days of issuing the revised policy
statement. Methods of dissemination include
training, webinars, brochures, emails, or other types
of written communication. Instructions to Federal
Agencies for MD-715 Section I The Model EEO
Program. Part I. Element A (B).
3. Within thirty (30) calendar days of the
date this decision is issued, the Agency shall
posta notice in accordance with the
paragraph entitled “Posting Order.”
POSTING ORDER (G0617)
53a

The Agency is ordered to post at its Strategic
Systems Programs Headquarters in Washington,
D.C., copies of the attached notice. Copies of the
notice, after being signed by the Agency's duly
authorized representative, shall be posted both in
hard copy and electronic format by the Agency
within 30 calendar days of the date this decision was
issued, and shall remain posted for 60 consecutive
days, in conspicuous places, including all places
where notices to employees are customarily posted.
The Agency shall take reasonable steps to ensure
that said notices are not altered, defaced, or covered
by any other material. The original signed notice is
to be submitted to the Compliance Officer as directed
in the paragraph entitled "Implementation of the
Commission's Decision," within 10 calendar days of
the expiration of the posting period. The report must
be in digital format, and must be submitted via the
Federal Sector EEO Portal (FedSEP). See 29 C.F.R.
§ 1614.403(g).
ATTORNEYS FEES
(H1019)
If Complainant has been represented by an attorney
(as defined by 29 C.F.R. § 1614.501(e)(l)(iii)), she is
entitled to an award of reasonable attorney's fees
incurred in the processing of the complaint. 29 C.F.R.
§ 1614.501(e). The award of attorney's fees shall be
paid by the Agency. The attorney shall submit a
verified statement of fees to the Agency — not to the
Equal Employment Opportunity Commission, Office
of Federal Operations -- within thirty (30) calendar
days of receipt of this decision. The Agency shall then
54a

process the claim for attorney's fees in accordance
with 29 C.F.R. § 1614.501.
IMPLEMENTATION OF
THE COMMISSION’S
DECISION (K0719)
Under 29 C.F.R. § 1614.405(c) and §1614.502,
compliance with the Commission’s corrective action
is mandatory. Within seven (7) calendar days of the
completion of each ordered corrective action, the
Agency shall submit via the Federal Sector EEO
Portal (FedSEP) supporting documentsin the digital
format required by the Commission, referencing the
compliance docket number under which compliance
was being monitored.
Once all compliance is complete, the Agency shall
submit via FedSEP a final compliance report in the
digital format required by the Commission. See 29
C.F.R. § 1614.403(g). The Agency’s final report must
contain supporting documentation when previously
not uploaded, and the Agencymust send a copy of all
submissions to the Complainant and his/her
representative.
If the Agency does not comply with the Commission’s
order, the Complainant may petition the Commission
for enforcement of the order. 29 C.F.R. § 1614.503(a).
The Complainant also has the right to file a civil
action to enforce compliance with the Commission’s
order prior to or following an administrative petition
for enforcement. See 29 C.F.R. §§ 1614.407,
1614.408, and29 C.F.R. § 1614.503(g). Alternatively,
the Complainant has the right to file a civil action on

55a

the underlying complaint in accordance with the
paragraph below entitled “Right to File a Civil
Action.” 29 C.F.R. §§ 1614.407 and 1614.408. A civil
action for enforcement or a civil action on the
underlying complaint is subject to the deadline stated
in 42 U.S.C. 2000e-16(c) (1994 & Supp.IV 1999). If
the Complainant files a civil action, the
administrative processing of the complaint,
including any petition for enforcement, will be
terminated. See 29 C.F.R. § 1614.409.
Failure by an agency to either file a compliance
report or implement any of the orders set forth inthis
decision, without good cause shown, may result in
the referral of this matter to the Office of Special
Counsel pursuant to 29 C.F.R. § 1614.503(f) for
enforcement by that agency.
STATEMENT OF RIGHTS ON APPEAL
RECONSIDERATION
(M0617)
The Commission may, in its discretion, reconsider
the decision in this case if the Complainant or the
Agency submits a written request containing
arguments or evidence which tend to establish that:
1.

The appellate decision involved a clearly
erroneous interpretation of material
fact orlaw; or

2.

The appellate decision will have a
substantial impact on the policies,
practices, oroperations of the Agency.
56a

Requests to reconsider, with supporting statement or
brief, must be filed with the Office of Federal
Operations (OFO) within thirty (30) calendar
days of receipt of this decision. A party shall have
twenty (20) calendar days of receipt of another
party’s timely request for reconsideration in which to
submit a brief or statement in opposition. See 29
C.F.R. § 1614.405; Equal Employment Opportunity
Management Directive for 29 C.F.R. Part 1614 (EEO
MD-110), at Chap. 9 § VII.B (Aug. 5, 2015). All
requests and arguments must be submitted to the
Director, Office of Federal Operations, Equal
Commission.
Employment
Opportunity
Complainant’s request may be submitted via regular
mail to P.O. Box 77960, Washington, DC 20013, or by
certified mail to 131M Street, NE, Washington, DC
20507. In the absence of a legible postmark, the
request to reconsider shall be deemed timely filed if
it is received by mail within five days of the
expiration of the applicable filing period. See 29
C.F.R. § 1614.604.
The agency’s request must be submitted in digital
format via the EEOC’s Federal Sector EEO Portal
(FedSEP). See 29 C.F.R. § 1614.403(g). The request
or opposition must also include proofof service on the
other party.
Failure to file within the time period will result in
dismissal of your request for reconsideration as
untimely,
unless
extenuating
circumstances
prevented the timely filing of the request. Any
supporting documentation must be submitted with
your request for reconsideration. The Commission
will consider requests for reconsideration filed after
57a

the deadline only in very limitedcircumstances. See
29 C.F.R. § 1614.604(c).
COMPLAINANT’S RIGHT
TO FILE A CIVIL ACTION
(R0610)
This is a decision requiring the Agency to continue its
administrative processing of your complaint.
However, if you wish to file a civil action, you have
the right to file such action in an appropriate United
States District Court within ninety (90) calendar
days from the date that you receive this decision. In
the alternative, you may file a civil action after one
hundred and eighty (180) calendar days of the
date you filed your complaint with the Agency, or
filed your appeal with the Commission. If you file a
civil action, you must name as the defendant in the
complaint the personwho is the official Agency head
or department head, identifying that person by his or
her full name and official title. Failure to do so may
result in the dismissal of your case in court. “Agency”
or “department” means the national organization,
and not the local office, facility or department in
which you work. Filing a civil action will
terminate the administrative processing of
your complaint.
RIGHT TO REQUEST
COUNSEL (Z0815)
If you want to file a civil action but cannot pay the
fees, costs, or security to do so, you may request
permission from the court to proceed with the civil
action without paying these fees or costs. Similarly,
58a

if you cannot afford an attorney to represent you in
the civil action, you may request thecourt to appoint
an attorney for you. You must submit the requests
for waiver of court costs orappointment of an
attorney directly to the court, not the
Commission. The court has the sole discretion to
grant or deny these types of requests. Such requests
do not alter the time limits for filing a civil action
(please read the paragraph titled Complainant’s
Right to File a Civil Action for the specific time
limits).
FOR THE COMMISSION:
Carlton M. Hadden, Director Office of Federal
Operations February 1414.2020Date
/S

59a

